TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




               Fiscal Year 2009 Review of Compliance With
               Legal Guidelines When Conducting Seizures
                          of Taxpayers’ Property



                                        May 19, 2009

                           Reference Number: 2009-30-077




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  May 19, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2009 Review of Compliance With
                               Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                               (Audit # 200930002)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) compliance
 with legal guidelines when conducting seizures. The overall objective of this review was to
 determine whether seizures 1 conducted by the IRS complied with legal provisions set forth in
 Internal Revenue Code (I.R.C.) Sections (§§) 6330 through 6344 (1994 & Supp. IV 1998) and
 with the IRS’ own internal procedures. The Treasury Inspector General for Tax Administration
 is required under I.R.C. § 7803(d)(1)(A)(iv) (Supp. IV 1998) to annually evaluate the IRS’
 compliance with the legal seizure provisions to ensure that taxpayers’ rights were not violated
 while seizures were being conducted. We have evaluated the IRS’ compliance with the seizure
 provisions since Fiscal Year 1999. This audit was not intended to determine whether the
 decision to seize was appropriate or to identify the cause of any violations.

 Impact on the Taxpayer
 To ensure that taxpayers’ rights are protected, the IRS Restructuring and Reform Act of 1998 2
 amended the seizure provisions in I.R.C. §§ 6330 through 6344. The IRS did not always comply
 with these statutory requirements. Although we did not identify any instances in which
 taxpayers were adversely affected, noncompliance with I.R.C. requirements could result in
 abuses of taxpayers’ rights.


 1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
 2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
r
                              Fiscal Year 2009 Review of Compliance With Legal Guidelines
                                    When Conducting Seizures of Taxpayers' Properly




    Synopsis
    We reviewed a random sample of 50 of the 610 seizures conducted from July 1, 2007, through
    June 30, 2008, to determine whether the IRS is complying with nwnerous legal and internal
    guidelines when conducting seizures. The IRS followed the guidelines in the majority of
    seizures. However, in 23 seizures, we identified 26 instances in which the IRS did not comply
    with a particular I.R.C. requirement. Because numerous statutory violations can occur on each
    case, the 26 instances that we identified in our 50 cases represent an error rate of only about
    1.5 percent. While we did not identify any instances in which the taxpayers were adversely
    affected, failure to follow legal and internal guidelines could result in abuses of taxpayers' rights.
    Our results included:
        -    Eleven instances in which the correct amount of the liability for which the seizure was
             made was not provided on the notice of seizure given to the taxpayer. (I.R.C. § 6335(a))
        -    Seven instances in which expenses and proceeds resulting from the seizure were not
             properly applied to the taxpayer's account. (I.R.C.§ 6342(a))
        -    Three instances in which required information relating to the sale of the seized property
             was not provided to the taxpayer. (I.R.C. § 6340(c))

        . I          1-----.·.. - -..,...


            ~==================::::'-_---------,------
        _1,---1-----'--------                                                                                   _

        - 1~1,,--~,,--_-------------_----.--.-. . . _-
                                                    . . - . -.------~-.--.--._----.----. _.---.~-- _ _--'--------'----I
        -   1                                -----'[                           .__ ---1                                  j




    3 A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
    on balance-due accounts that are not being paid voluntarily.

                                                                                                                              2
                    Fiscal Year 2009 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




Recommendations
We recommended that the Director, Collection, Small Business/Self-Employed Division, include
an instruction on the Notice of Seizure (Form 2433) 4 in the “Amount” field that the total should
be the same as on the Form 668-B. The Director, Collection, should also include a requirement
on the Post-Seizure Review Checksheet (Form 13361) 5 that the reviewer verify that the proceeds
have been posted and that the Transaction Code 6 694, Designated Payment of Fees and
Collection Costs, was used to post the amount applicable to the seizure expenses incurred.

Response
IRS management agreed with our recommendations. The Form 2433 will be revised to include
an instruction in the “Amount” field that the total should be the same as the amount on the
Form 668-B. Also, the Form 13361 will be revised to include a requirement for the reviewer to
verify that the proceeds are correctly posted and Transaction Code 694 is used to post the amount
applicable to the seizure expenses incurred. Management’s complete response to the draft report
is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




4
  Form 2433 is the taxpayer’s receipt for the seized property. The document specifies the sum demanded – for
personal property, a listing of the property seized; for real property, a description of the property seized.
5
  The Internal Revenue Manual requires that the Form 13361 (or comparable form) be completed during the
post-review to ensure that all required actions were taken.
6
  Transaction codes are used to identify transactions being processed to the IRS computer systems and to maintain a
history of actions posted to a taxpayer’s account.
                                                                                                                  3
                       Fiscal Year 2009 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Did Not Always Comply With
          Legal Provisions and Internal Procedures When Conducting Seizures........Page 3
                    Recommendations 1 and 2: ................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measure ................................................................Page 10
          Appendix V – Synopsis of Selected Legal Provisions for
          Conducting Seizures .....................................................................................Page 11
          Appendix VI – Prior Reports on Compliance With Seizure Procedures ......Page 14
          Appendix VII – Management’s Response to the Draft Report.....................Page 15
         Fiscal Year 2009 Review of Compliance With Legal Guidelines
               When Conducting Seizures of Taxpayers’ Property




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
                    Fiscal Year 2009 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                              Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with letters
to the taxpayer followed by telephone calls and personal contacts by an IRS employee. The
employees who make personal contacts are referred to as revenue officers. They consider the
taxpayer’s ability to pay the tax and discuss alternatives, such as an installment agreement or an
offer in compromise. 1 If these actions have been taken and the taxpayer has not fully paid the
tax due, the revenue officer has the authority to take the taxpayer’s funds or property for the
payment of tax. Taking a taxpayer’s property for unpaid tax is commonly referred to as a
“seizure.”
To ensure that taxpayer rights are protected, the IRS Restructuring and Reform Act of 1998 2
amended the seizure provisions in Internal Revenue Code (I.R.C.) Sections (§§) 6330 through
6344 (1994 & Supp. IV 1998). These provisions and the IRS’ internal procedures are very
specific regarding how a seizure should be performed. See Appendix V for a synopsis of the
applicable legal provisions.
The Treasury Inspector General for Tax Administration is required under
I.R.C. § 7803(d)(1)(A)(iv) (Supp. IV 1998) to annually evaluate the IRS’ compliance with these
legal seizure provisions. We have evaluated the IRS’ compliance with the seizure provisions
since Fiscal Year 1999. See Appendix VI for a list of all prior audit reports issued on the IRS’
compliance with seizure procedures.
Following passage of the IRS Restructuring and Reform Act of 1998, the number of seizures by
the IRS decreased from 10,090 in Fiscal Year 1997 to 74 in Fiscal Year 2000. Although the
number of seizures has steadily increased since Fiscal Year 2000, the number in Fiscal
Year 2008 was still 6 percent of the number reported in Fiscal Year 1997. It is unlikely that the
use of seizures will ever return to the pre-1998 levels. Figure 1 illustrates the number of seizures
made over the past 12 fiscal years.




1
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 1
                       Fiscal Year 2009 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                   Figure 1: IRS Seizures by Fiscal Year

          12,000
                    10,090
          10,000

           8,000


           6,000


           4,000
                             2,259
           2,000
                                                                    399     440     512     590     676    610
                                     161      74     234     296
              -
                     1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008


       Source: IRS Data Books. 3

This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period August 2008 through February 2009. The audit
focused on determining whether the IRS conducted seizures in compliance with legal and
internal procedures. It was not intended to determine whether the decision to seize was
appropriate or to identify the cause of any violations. We did not assess internal controls
because doing so was not applicable within the context of our audit objective. Otherwise, we
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
    The IRS Data Book is a report that describes activities conducted by the IRS during the fiscal year.
                                                                                                                 Page 2
                       Fiscal Year 2009 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers' Properly




                                                Results of Review

The Internal Revenue Service Did Not Always Comply With Legal
Provisions and Internal Procedures When Conducting Seizures
We reviewed a random sample of 50 of the 610 seizures conducted from July 1,2007, through
June 30, 2008, to determine whether the IRS is complying with numerous legal and internal
guidelines when conducting each seizure. The IRS followed the guidelines in the majority of
seizures. However, in 23 seizures, we identified 26 instances in which the IRS did not comply
with a particular LR.C. requirement. Because there can be numerous statutory violations on each
case, the 26 instances that we identified in our 50 cases represent an error rate of only about
1.5 percent. While we did not identify any instances in which the taxpayers were adversely
affected, not following the legal and internal guidelines could result in abuses of taxpayers'
rights.
The 26 instances included:
    •    Eleven instances in which the correct amount of the liability for which th~ seizure was
         made was not provided on the notice of seizUre given to the taxpayer. (I.R.C. § 6335(a))
    -    Seven instances in which expenses and proceeds resulting from the seizure were not
         properly applied to the taxpayer's account. (I.R.C. § 6342(a))
    _    Three instances in which required information relating to the sale of the seized property
         was not provided to the taxpayer. (I.R.C. § 6340(c))

    •   lL-~~1-_""'_""_""_'-_"-_"'''_'''_'''_'''''_''''''_--_'-''_'-'''_'''_'''--r=\''=''--='''='''=~~---'-~~--------
     ' --'-----~
    _1_                                                                                                             I
    -   IL-~_'''_·''·-·_·''·''···_-''·''_''·''~··--_'''''_''··-_-'-_····:_ __.._~
        _                                                                        (               ~_---.l,




4A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being paid voluntarily.
                                                                                                                Page 3
                     Fiscal Year 2009 Review of Compliance With Legal Guidelines
                           When ConductIng Seizures of Taxpayers' Properly




Taxpayers were not always provided notices of seizure with accurate liability
balances or a correct accounting of the property seized
LR.C. § 6335(a) requires the IRS, as soon as practicable after the seizure of property, to provide
the owner of the property with a notice in writing that specifies the liability for which the seizure
was made and an accounting of the property seized.
 The Internal Revenue Manual provides guidance on completing the Notice of Seizure
 (Form 2433).5 It requires that the Form 2433 liability equal the taxpayer's total amount due for
 the tax modules6 listed on Form 668-B. This amount should include all accruals and match the
 Total Amount Due on Form 668-B. If there is a difference in amount, it should be documented
 in the Integrated Collection System? history. The items of property seized should be described
 and identified with reasonable certainty in an inventory listed on the Form 2433 or in an
 attachment to the Form 2433. We identified 11 cases in which the Forms 2433 provided to the
ltax a ers did not show the correct liabilities for which the seizures were made andl_1~~         _


Expenses and proceeds resulting from the sales of seized properties were not
alwavs properly applied to taxpayers I accounts
l.R.C. § 6342(a) and the Internal Revenue Manual require any money realized by seizure or by
sale of seized property to be applied in the following order:
    •    First, against the expenses of the proceedings.
    •    Second, against any unpaid tax imposed by any Internal Revenue law against the property
         seized and sold (for example, an excise tax).
    •    Finally, against the liability with respect to which the levy was made or the sale was
         conducted (the accounts appearing on the Form 668-B).
Because the l.R.C. requires funds realized under seizure and sale proceedings to be applied first
to the expenses of the levy and sale, the Internal Revenue Manual requires the proceeds to be
credited to the taxpayer's account using a Transaction Code 8 694, Designated Payment of Fees
and Collection Costs, for the amount of the expenses. We identified three cases for which the
proceeds from the seizures were not posted to the taxpayers' accounts using a Transaction Code


5 The Form 2433 is the taxpayer's receipt for the seized property. The docwnent specifies the sum demanded - for
personal property, a listing ofthe property seized; for real property, a description of the property seized.
6 Tax module refers to each tax return filed by the taxpayer for a specific period (year and quarter) during a calendar
~ear for each type of tax.                    .
 The integrated Collection System is an automated system used to control and monitor delinquent cases assigned to
revenue officers in the field offices.
8 Transaction codes are used to identify transactions being processed to the fRS computer systems and to maintain a
history of actions posted to a taxpayer's account.
                                                                                                               Page 4
                    Fiscal Year 2009 Review of Compliance With Legal Guidelines
                          When Conducting seizures of Taxpayers l Property




694 for the amounts applicable to the expenses. The entire proceeds were entered using a
Transaction Code 670, Subsequent Payment, which is used to record tax liability payments. The
Internal Revenue Manual requires the Technical Support function to post review the seizure file.
The IRS developed the Post-Seizure Review Checksheet (Form 13361)9 to assist in the
post-review process. However, there is nothing on the Form that requires the reviewer to verify
that the proceeds have been posted and that the Transaction Code 694 was used to post the
amount applicable to the seizure expenses incurred.
We also identified three seizures for which the proceeds were applied to a liability on the
taxpayer's account that was not on the Form 668-B before the liabilities on the Fo.rm 668-B were
satisfied, an~l                                                                             ··1
111

Information relating to the seizures and sales of properties was not always
provided to the taxpayers as required
I.R.C. § 6340(a) requires the IRS to keep a record of all sales ofproperty. The record should
include the tax for which any such sale was made, the dates of the seizure and sale, the name of
the party assessed, all proceedings in making the sale, the amount of expenses, the names of the
purchasers, and the date of the deed or certificate of sale of personal property. I.R.C. § 6340(c)
requires that the taxpayer be furnished the record of sale under subsection (a) (other than the
names ofthe purchasers).
The Internal Revenue Manual lists the Record of Seizure and Sale (Record 21) 10 as one of three
documents to be retained in the permanent record and to be provided to the taxpayer. We
identified I

I                                                           I
Sales of seized properties were not a/ways properly advertised
I.R.C. § 6335(b) requires the IRS, as soon as practicable after the seizure of property, to publish
a notification in a newspaper distributed within the county where the seizure was made. The
notice must specify the property to be sold and the time, place, manner, and conditions of the
sale thereof. I.R.C. § 6335(d) requires the sale to occur between 10 calendar days and
40 calendar days after giving public notice.

9 The Internal Revenue Manual requires that the Fonn 13361 (or comparable fonn) be completed during the
post review to ensure all required actions were taken.
10 Record 21 is a three-part fonn that documents various aspects of the seizure and sale process. It includes
information such as the assessments under which the seizute was made, description of the property seized,
information regarding the advertisement of the sale, the proceeds and expenses of the seizure and sale, and the date
on which the certificate of sale was issued and to whom.

                                                                                                              Page 5
                   Fiscal Year 2009 Review of Compliance With Legal Guidelines
                         When Conducting Seizures of' Taxpayers' Property




The Internal Revenue Manual requires that the notice of sale contain the legal description of the
property; the date, time, and place of sale; the payment tenus; information on grouping of
property; and a statement that the date of sale must be set at least 10 calendar days but not more
    4             da s from the date notice is to be ublished in the news a er. 11         ... . . .1
1



The IRS did not provide the intent to levy notice for every period on Form 668-8
l.R.C. § 6330(a) requires that a levy may not be made on any property or right to property of any
person, unless the IRS has notified that person in writing of his or her right to a hearing before
the levy is made. The notice is required for all the taxable periods to which the unpaid tax
relates. T.R.C. § 6331 (d) also requires that a levy can be made only after the IRS has notified the
taxpayer, in writing, of the intention to make the levy no less than 30 calendar days before the
day of the levy.
The Internal Revenue Manual requires that a Notice oflntent to Levy and Notice of Your Right
to a Hearing (Letter 1058) must have been provided to the taxpa er at least 30 calendar da s
before the seizure for each tax eriod listed on the Fonn 668-B ..


Recommendations
The Director, Collection, Small      Business/Self~EmployedDivision,         should:
Recommendation 1: Include an instruction on the Form 2433 in the "Amount" field that the
total should be the same as on the Form 668-B. 1I
        Management's Response: IRS management agreed with the recommendation and
        advised that Form 2433 will be revised to include an instruction in the "Amount" field
        that the total should be the same as the amount on the Form 668-B.
Recommendation 2: Include a requirement on the Form 13361 that the reviewer verify that
the proceeds have been posted and that the Transaction Code 694, Designated Payment of Fees
and Collection Costs, was used to post the amount applicable to the seizure expenses incurred.
        Management's Response: IRS management agreed with the recommendation and
        advised that Form 13361 will be revised to include a requirement for the reviewer to
        verify proceeds are correctly posted and Transaction Code 694 is used to post the amount
        applicable to the seizure expense incurred.




II During the review. the Treasury Inspector General for Tax Administration was informed that the recommended
change to the Form 2433 had been made and would be published shortly.
                                                                                                        Page 6
                    Fiscal Year 2009 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures 1 conducted by the
IRS complied with legal provisions set forth in I.R.C. §§ 6330 through 6344 (1994 & Supp. IV
1998) and with the IRS’ own internal procedures. 2 We did not assess internal controls because
doing so was not applicable within the context of our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
To accomplish our objective, we:
I.       Obtained documentation of national guidelines provided to employees; identified IRS
         systems, policies, and practices for ensuring compliance with legal provisions and
         internal procedures related to seizures; and determined how these tools were used.
II.      Selected and reviewed a random sample of 50 of the 610 seizures conducted by the IRS
         from July 1, 2007, through June 30, 2008. We reviewed the sample of seizures to
         determine whether the IRS complied with legal provisions and internal procedures and
         whether the proceeds and applicable expenses of the seizures and sales were properly
         recorded to the taxpayers’ accounts on the IRS’ main computer system. We used a
         random sample to ensure that each of the 610 seizures had an equal chance of being
         selected.




1
 Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
 This audit was not intended to determine whether the decision to seize was appropriate or to identify the cause of
any violations.
                                                                                                             Page 7
                Fiscal Year 2009 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Amy L. Coleman, Audit Manager
Janis Zuika, Lead Auditor
Julian O’Neal, Senior Auditor




                                                                                      Page 8
                Fiscal Year 2009 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
                       Fiscal Year 2009 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                                                                        Appendix IV

                                         Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Taxpayer Rights and Entitlements – Actual; 23 taxpayers for whom the IRS did not comply
       with legal provisions and internal procedures when conducting seizures 1 (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a random sample of 50 of the 610 seizures conducted from
July 1, 2007, through June 30, 2008. While we did not identify any instances in which the
taxpayers were adversely affected, not adhering to legal and internal guidelines could result in
abuses of taxpayers’ rights.




1
    Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                                                                                             Page 10
                     Fiscal Year 2009 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



                                                                                                     Appendix V

Synopsis of Selected Legal Provisions for Conducting
                      Seizures

I.R.C. § 6330 (Supp. IV 1998) requires the IRS to issue the taxpayer a notice of his or her right
to a hearing prior to seizure 1 action. The notice must be 1) given in person, 2) left at the
taxpayer’s home or business, or 3) mailed as certified-return receipt requested no fewer than
30 calendar days before the day of the seizure. The notice must explain in simple terms 1) the
amount owed, 2) the right to request a hearing during the 30-calendar-day period, and 3) the
proposed action by the IRS and the taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines that the IRS has shown good cause not to suspend
the seizure. No limitation period may expire before 90 calendar days after a final determination.
These procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 (1994 & Supp. IV 1998) authorizes the IRS to seize a taxpayer’s property for
unpaid tax after sending the taxpayer a 30-calendar-day notice of intent to levy. 2 This Section
also prohibits seizure 1) during a pending suit for the refund of any payment of a divisible tax,
2) before a thorough investigation of the status of any property subject to seizure, or 3) while
either an offer in compromise 3 or an installment agreement is being evaluated and, if necessary,
for 30 additional calendar days during which the taxpayer may appeal the rejection of the offer in
compromise or installment agreement.
I.R.C. § 6332 (1994 & Supp. IV 1998) requires a third party in possession of property subject to
seizure to surrender such property when a levy notice is received. It contains sanctions against
third parties that do not surrender such property when a levy notice is received.
I.R.C. § 6333 (1994 & Supp. IV 1998) requires a third party with control of books or records
containing evidence or statements relating to property subject to seizure to exhibit such books or
records to the IRS when a levy notice is received.




1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
3
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
                                                                                                               Page 11
                    Fiscal Year 2009 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



I.R.C. § 6334 (1994 & Supp. IV 1998) enumerates property exempt from seizure. The
exemption amounts are adjusted each year and included $7,040 for the period July 1 through
December 31, 2004, and $7,200 for the period January 1 through June 30, 2005, for fuel,
provisions, furniture, and personal effects and $3,520 for the period July 1 through
December 31, 2004, and $3,600 for the period January 1 through June 30, 2005, for books and
tools necessary for business purposes. Also, any primary residence, not just the taxpayer’s, is
exempt from seizure when the amount owed is $5,000 or less. Seizure of the taxpayer’s
principal residence is allowed only with the approval of a United States District Court judge or
magistrate. Property used in an individual taxpayer’s business is exempt except with written
approval of the Area Office 4 Director, and the seizure may be approved only if other assets are
not sufficient to pay the liability.
I.R.C. § 6335 (1994 & Supp. IV 1998) contains procedures for the sale of seized property.
Notice must be given to the taxpayer; the property must be advertised in the county newspaper or
posted at the nearest United States Postal Service office; and such notices shall specify the time,
place, manner, and conditions of sale. This Section requires that the property be sold no fewer
than 10 calendar days or more than 40 calendar days from the time of giving public notice.
Finally, this Section expressly prohibits selling seized property for less than the minimum bid.
I.R.C. § 6336 (Supp. IV 1998) contains procedures for the accelerated disposition of perishable
property. This is property such as fresh food products or any property that requires prohibitive
expenses to maintain during the normal sale time period. The property may either be sold
quickly or returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 (1994 & Supp. IV 1998) allows the taxpayer to redeem seized property prior to
sale by paying the amount due plus the expenses of the seizure. It also allows a taxpayer to
redeem real property within 180 calendar days of the sale by paying the successful bidder the
purchase price plus 20 percent per annum interest.
I.R.C. § 6338 (1994 & Supp. IV 1998) requires the IRS to give purchasers of seized property a
certificate of sale upon full payment of the purchase price. This includes issuing a deed to real
property after expiration of the 180-calendar-day period required by I.R.C. § 6337. The deed is
exchanged for the certificate of sale issued at the time of the sale.
I.R.C. § 6339 (1994 & Supp. IV 1998) provides the legal effect of the certificate of sale for
personal property and the transfer deed for real property.
I.R.C. § 6340 (1994 & Supp. IV 1998) requires each Area Office to keep a record of all sales of
seized property. This record must include the tax for which such sale was made, the dates of
seizure and sale, the name of the party assessed, all proceedings in making such sale, the amount
of expenses, the names of the purchasers, and the date of the deed or certificate of sale of

4
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 12
                    Fiscal Year 2009 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



personal property. The taxpayer will be furnished 1) the information above except the
purchasers’ names, 2) the amount of such sale applied to the taxpayer’s liability, and 3) the
remaining balance of such liability.
I.R.C. § 6341 (1994 & Supp. IV 1998) allows expenses for all seizure and sale cases.
I.R.C. § 6342 (1994 & Supp. IV 1998) enumerates how the proceeds of a seizure and sale are to
be applied to a taxpayer’s account. Proceeds are applied first to the expenses of the seizure and
sale proceedings. Any remainder is then applied to the taxpayer’s liability.
I.R.C. § 6343 (1994 & Supp. IV 1998) outlines various conditions under which a seizure may
be released and property returned to the taxpayer. These conditions include full payment of the
liability, determination of a wrongful seizure, financial hardship, etc. This Section allows a
consent agreement between the United States and either the taxpayer or the National Taxpayer
Advocate 5 when the return of seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 (1994 & Supp. IV 1998) contains cross-references for I.R.C. §§ 6330 through
6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998) 6 § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers 7 from
participating in the sales of seized assets.




5
  The Taxpayer Advocate Service is an independent organization within the IRS whose employees assist taxpayers
seeking help in resolving tax problems that have not been resolved through normal channels or who are experiencing
significant hardships.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
7
  The employees who make personal contacts with taxpayers are referred to as revenue officers.
                                                                                                        Page 13
                Fiscal Year 2009 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                             Appendix VI

          Prior Reports on Compliance With Seizure
                         Procedures

The Internal Revenue Service Needs to Improve Compliance with Legal and Internal Guidelines
When Taking Taxpayers’ Property for Unpaid Taxes (Reference Number 199910072, dated
September 27, 1999).
The Internal Revenue Service Has Significantly Improved Compliance With Legal and Internal
Guidelines When Seizing Taxpayers’ Property (Reference Number 2000-10-114, dated August 9,
2000).
Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
When Seizing Property for Payment of Tax (Reference Number 2001-10-061, dated May 11,
2001).
The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is Needed
to Fully Implement the Uniform Asset Disposal Mechanism (Reference Number 2002-10-005,
dated November 26, 2001).
The Internal Revenue Service Continues to Comply With the Law When Seizing Taxpayers’
Property (Reference Number 2002-40-155, dated August 21, 2002).
Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures (Reference
Number 2003-40-115, dated May 12, 2003).
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
Taxpayers’ Property (Reference Number 2004-30-149, dated August 25, 2004).
Fiscal Year 2005 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2005-30-091, dated June 3, 2005).
Fiscal Year 2006 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2006-30-113, dated August 9, 2006).
Fiscal Year 2007 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2007-30-109, dated July 3, 2007).
Fiscal Year 2008 Review of Compliance With Legal Guidelines When Conducting Seizures of
Taxpayers’ Property (Reference Number 2008-30-126, dated June 6, 2008).




                                                                                      Page 14
    Fiscal Year 2009 Review of Compliance With Legal Guidelines
          When Conducting Seizures of Taxpayers’ Property



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 15
Fiscal Year 2009 Review of Compliance With Legal Guidelines
      When Conducting Seizures of Taxpayers’ Property




                                                       Page 16
